TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                The Referral Process for Examinations of Tax
                Returns Claiming the Foreign Earned Income
                      Exclusion Needs to Be Improved



                                      September 27, 2013

                              Reference Number: 2013-30-112




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                   HIGHLIGHTS


THE REFERRAL PROCESS FOR                               exclusions, credits, and deductions claimed
EXAMINATIONS OF TAX RETURNS                            were as follows:
CLAIMING THE FOREIGN EARNED                               $23.3 billion in the FEIE.
INCOME EXCLUSION NEEDS TO BE
                                                          $5 billion in Foreign Tax Credits.
IMPROVED
                                                          $2.7 billion in Foreign Housing Exclusions.

Highlights                                                $102.6 million in Foreign Housing
                                                           Deductions.
Final Report issued on                                 From a statistical sample of 150 tax returns from
September 27, 2013                                     a population of 331,405 Tax Year 2009
                                                       individual income tax returns claiming the FEIE
Highlights of Reference Number: 2013-30-112            and/or the Foreign Housing Exclusion/Deduction
to the Internal Revenue Service Commissioner           filed during Processing Year 2010, TIGTA
for the Large Business and International               estimated that U.S. taxpayers living and working
Division.                                              in foreign countries who claimed the FEIE
                                                       reduced their Federal income taxes by
IMPACT ON TAXPAYERS                                    $562 million. Taxpayers claiming the Foreign
                                                       Housing Exclusion/Deduction reduced their
To alleviate double taxation of taxpayers earning
                                                       Federal income taxes by an additional
foreign income while residing overseas, Internal
                                                       $174 million for Tax Year 2009.
Revenue Code Section 911(a) provides for the
Foreign Earned Income Exclusion (FEIE) and             In addition, during Fiscal Years 2009 through
the Foreign Housing Exclusion/Deduction. For           2011, 2,851 (99 percent) of the 2,876 individual
Tax Year 2012, the FEIE allowed taxpayers to           income tax returns examined where a
exclude foreign earned income of up to $95,100.        Form 2555/2555-EZ was present were not
Qualifying taxpayers living and working in a           referred to an international examiner as required
foreign country may also claim a limited               by IRS procedures. TIGTA estimated that
exclusion or deduction for the amount of their         improving the audit referral process could result
housing expenses. These benefits can                   in approximately $2.7 million in additional tax
significantly reduce or eliminate taxpayers’           assessments, or $13.5 million over five years.
U.S. income tax liabilities regardless of whether      Moreover, 1,583 examinations that were not
they paid any foreign income taxes.                    required by the IRS to be referred might warrant
                                                       referral to international examiners. Referral of
WHY TIGTA DID THE AUDIT                                these tax returns could potentially result
Because of the large dollar amount of this             in approximately $1.5 million in additional tax
exclusion, it has a significant impact on an           assessments, or $7.5 million over five years.
individual’s tax return. It is important for the IRS
                                                       WHAT TIGTA RECOMMENDED
to ensure that taxpayers are properly qualified
for and accurately claiming this exclusion. The        TIGTA recommended that the IRS ensure that:
overall objective of the review was to provide an      1) domestic examiners and their managers are
overview of tax returns claiming the FEIE and          aware of the international referral criteria and a
the Foreign Housing Exclusion/Deduction.               cross reference to those criteria is incorporated
                                                       into the Campus Reporting Compliance section
WHAT TIGTA FOUND                                       of the Internal Revenue Manual and 2) the
Of approximately 140 million Tax Year 2009             international referral criteria process is evaluated
individual income tax returns filed during             to determine if it should be expanded to include
Processing Years 2010 and 2011,                        the Wage and Investment Division.
372,119 (0.27 percent) tax returns included a          IRS officials agreed with the recommendations
Form 2555/2555-EZ, Foreign Earned                      and plan to take corrective actions.
Income/Foreign Earned Income Inclusion. The
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 27, 2013


 MEMORANDUM FOR COMMISSIONER, LARGE BUSINESS AND INTERNATIONAL
                DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Referral Process for Examinations of Tax
                             Returns Claiming the Foreign Earned Income Exclusion Needs to Be
                             Improved (Audit # 201130050)

 This report presents the results of our review to provide an overview of tax returns claiming the
 Foreign Earned Income Exclusion and the Foreign Housing Exclusion/Deduction. This audit is
 included in our Fiscal Year 2013 Annual Audit Plan and addresses the major management
 challenge of Globalization.
 Management’s complete response to the draft report is included as Appendix VIII.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Nancy Nakamura, Assistant
 Inspector General for Audit (Compliance and Enforcement Operations).
                      The Referral Process for Examinations of Tax Returns Claiming
                       the Foreign Earned Income Exclusion Needs to Be Improved




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          A Small Percentage of Taxpayers Elected the Foreign
          Earned Income Exclusion ............................................................................. Page 5
          Examinations of Tax Returns Claiming the Foreign
          Earned Income Exclusion Are Not Appropriately
          Referred to International Examiners ............................................................. Page 7
                    Recommendation 1:........................................................ Page 10

                    Recommendation 2:........................................................ Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Outcome Measures............................................................... Page 16
          Appendix V – Form 2555, Foreign Earned Income ..................................... Page 20
          Appendix VI – Characteristics of Tax Year 2009 Individual
          Income Tax Returns Filed With a Form 2555/2555-EZ ............................... Page 23
          Appendix VII – Glossary of Terms .............................................................. Page 24
          Appendix VIII – Management’s Response to the Draft Report ................... Page 26
       The Referral Process for Examinations of Tax Returns Claiming
        the Foreign Earned Income Exclusion Needs to Be Improved




                      Abbreviations

FEIE            Foreign Earned Income Exclusion
IRS             Internal Revenue Service
U.S.            United States
                    The Referral Process for Examinations of Tax Returns Claiming
                     the Foreign Earned Income Exclusion Needs to Be Improved




                                              Background

1. The General Rules. To qualify for the Foreign Earned Income Exclusion, a U.S. citizen or resident alien must
   have a tax home in a foreign country and income received for working in a foreign country (foreign earned income).
   The taxpayer must also meet either the bona fide residence test or the physical presence test.
2. The Exclusion Amount. The Foreign Earned Income Exclusion is adjusted annually for inflation. For Tax Year
   2012, the maximum exclusion is $95,100 per qualifying person.
3. Claiming the Exclusion. The Foreign Earned Income Exclusion and the Foreign Housing Exclusion/Deduction
   are claimed by using Form 2555, Foreign Earned Income, or, if only claiming the Foreign Earned Income
   Exclusion, by using Form 2555-EZ, Foreign Earned Income Exclusion.
4. Taking Other Credits or Deductions. Once the Foreign Earned Income Exclusion is chosen, a foreign tax credit
   or deduction for taxes cannot be claimed on the excluded income. If a foreign tax credit or tax deduction is taken
   on any of the excluded income, the Foreign Earned Income Exclusion may be considered revoked.

United States (U.S.) citizens and resident aliens1 are taxed on their worldwide income, whether
the individual lives inside or outside of the United States. Some U.S. citizens may also pay
taxes—on the same income subject to U.S. Federal income tax—to the foreign country in which
they reside and work.
Internal Revenue Code Section 911(a) provides that at the election of a qualified individual there
shall be excluded from the gross income of such individual, and exempt from taxation under this
subtitle, for any taxable year 1) the foreign earned income of such individual and 2) the housing
cost amount of such individual.
The Foreign Earned Income Exclusion (FEIE) allows U.S. taxpayers residing in a foreign
country2 to exclude a specific amount of foreign earned income from their U.S. taxable income,3
thus reducing their overall income tax liability. To qualify for the FEIE, the U.S. citizen or
resident alien’s tax home must be in a foreign country, and the U.S. citizen or resident alien must
be a bona fide resident4 of a foreign country or present in a foreign country for at least 330 days
over a 12-month period.



1
  See Appendix VII for a glossary of terms.
2
  The term “foreign country” does not include Antarctica or U.S. possessions such as Puerto Rico, Guam, the
Commonwealth of the Northern Mariana Islands, the U.S. Virgin Islands, and Johnston Island. It also does not
include international waters or the airspace above them.
3
  Income earned from working abroad as an employee of the U.S. Government does not qualify for the FEIE.
4
  The bona fide residence test is generally satisfied if the individual has established and maintained a residence in a
foreign country for an uninterrupted period that includes an entire taxable year. An individual would not be
considered a resident if a statement was submitted to the tax authorities of the foreign country indicating
nonresidency and the foreign country did not subject the individual to foreign income taxation.
                                                                                                                Page 1
                       The Referral Process for Examinations of Tax Returns Claiming
                        the Foreign Earned Income Exclusion Needs to Be Improved



The FEIE is computed by taxpayers on the Form 2555, Foreign Earned Income,5 or
Form 2555-EZ, Foreign Earned Income Exclusion, and filed with their annual Forms 1040,
U.S. Individual Income Tax Return. Figure 1 shows a section of Form 2555 for Tax Year 2012,
which shows the maximum FEIE amount of $95,100.
                         Figure 1: Line 37 of the Form 2555 for Tax Year 2012
________________________________________________________
    Part VII    Taxpayers Claiming the Foreign Earned Income Exclusion
    37    Maximum foreign earned income exclusion                . . . . . . . . . . . . . . . . |37| $95,100.00
____________________________________________________________________________________________________________________________________
Source: IRS.gov, Line 37 of Form 2555 for Tax Year 2012.

If both the taxpayer and his or her spouse worked abroad in Tax Year 2012 and each met all the
qualifications, each could choose the FEIE and together exclude as much as $190,200 of foreign
earned income from their U.S. taxable income.
The FEIE provides qualified taxpayers the benefit of reduced U.S. taxes, and in some case the
elimination of U.S. income taxes, whenever there is foreign earned income, regardless of
whether the taxpayers paid any foreign income taxes or not. Some foreign countries have no
income tax and U.S. taxpayers who reside in those countries do not pay taxes to a foreign tax
authority. Because this exclusion is allowed regardless of taxes owed, it benefits taxpayers by
reducing or eliminating their U.S. income tax liabilities regardless of whether they paid any
foreign income taxes.
Taxpayers living and working in a foreign country may also be able to claim an exclusion or a
deduction for their housing expenses if their tax home is in a foreign country and they qualify for
the Foreign Housing Exclusion/Deduction under either the bona fide residence test or the
physical presence test.
         The Foreign Housing Exclusion applies only to amounts considered paid for with
          employer-provided funds (wages).
         The Foreign Housing Deduction applies only to amounts paid for with self-employment
          earnings.
The housing amount is the taxpayer’s housing expenses (rent, repairs, utilities, etc.) for the year
that exceeds a base housing amount. The computation of the base housing amount is tied to the
maximum FEIE. The housing amount is 16 percent of the FEIE amount (computed on a daily
basis) multiplied by the number of days in the qualifying period that falls within the tax year.
Taxpayers use Form 2555 to determine the amount of the exclusion or deduction.
Additionally, taxpayers who pay or accrue foreign taxes to a foreign country on foreign-sourced
income may be able to take either a credit or an itemized deduction for those taxes. Taken as a

5
    See Appendix V for an example of the Form 2555.
                                                                                                                                  Page 2
                  The Referral Process for Examinations of Tax Returns Claiming
                   the Foreign Earned Income Exclusion Needs to Be Improved



deduction on Schedule A, Itemized Deductions, of the Form 1040, foreign income taxes reduce
the U.S. taxable income. Taken as a credit on Form 1116, Foreign Tax Credit, foreign income
taxes reduce the U.S. tax liability. Certain U.S. taxpayers may qualify for a Foreign Tax Credit
and the FEIE. However, if a Foreign Tax Credit or tax deduction is also claimed for any of the
foreign taxes paid on the excluded income, the FEIE may be considered revoked.
Figure 2 compares the tax consequences for Tax Year 2012 for a U.S. taxpayer living and
working in a foreign country (one with and one without an income tax) to a taxpayer residing
and working in the United States.6
        Figure 2: Comparison of Income Taxes for Taxpayers Living and
    Working in the United States, the Cayman Islands, and the United Kingdom7

                                                                          United        Cayman        United
Country Where U.S. Taxpayer Resides and Earns Income                      States        Islands      Kingdom
Country’s Highest Tax Rate                                                  35%            0%           50%

Earned income of $104,850 qualifying for the FEIE

Earned Income                                                             $104,850      $104,850       $104,850

Less: Standard deduction $5,950 and one exemption $3,800                   ($9,750)      ($9,750)       ($9,750)

Less: FEIE                                                                     N/A      ($95,100)      ($95,100)

U.S. Taxable Income                                                        $95,100              $0            $0

Total U.S. Income Tax                                                      $20,096              $0            $0

Foreign Income Tax                                                                $0            $0      $25,552

Total Worldwide Income Tax                                                 $20,096              $0      $25,552

Effective Worldwide Income Tax Rate8                                           19%              0%          24%




6
  In Tax Year 2012, both the United States and the United Kingdom had graduated income tax rates with a top
income tax rate of 35 percent and 50 percent respectively, while the Cayman Islands had no income tax.
7
  The tax calculations are hypothetical examples for demonstration purposes only.
8
  Effective worldwide income tax rate is computed by dividing total worldwide income tax by the earned wages of
$104,850 for each example.
                                                                                                         Page 3
                   The Referral Process for Examinations of Tax Returns Claiming
                    the Foreign Earned Income Exclusion Needs to Be Improved




                                                                             United       Cayman          United
Country Where U.S. Taxpayer Resides and Earns Income                         States       Islands        Kingdom
Country’s Highest Tax Rate                                                    35%            0%            50%

Earned income of $104,850 without the FEIE but with the U.S. Foreign Tax Credit

Taxable Income (after claiming standard deduction and one exemption)          $95,100       $95,100         $95,100

U.S. Income Tax                                                               $20,096       $20,096         $20,096

Less: U.S. Foreign Tax Credit                                                     ($0)          ($0)      ($20,096)

Total U.S. Income Tax                                                         $20,096       $20,096                $0

Foreign Income Tax                                                                  $0            $0        $25,552

Total Worldwide Income Tax                                                    $20,096       $20,096         $25,552

Effective Worldwide Income Tax Rate                                              19%            19%               24%

Source: Our analysis of the FEIE tax effect for hypothetical U.S. taxpayers living and working in the United States,
the Cayman Islands, and the United Kingdom. N/A = Not Applicable.

This review was performed at the Internal Revenue Service (IRS) Large Business and
International Division9 Headquarters in Washington, D.C., and the IRS Campus in Austin, Texas,
during the period August 2011 through March 2013. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




9
  The Large Business and International Division is responsible for large business and international compliance,
including both international business and individual compliance.
                                                                                                            Page 4
                  The Referral Process for Examinations of Tax Returns Claiming
                   the Foreign Earned Income Exclusion Needs to Be Improved




                                    Results of Review

A Small Percentage of Taxpayers Elected the Foreign Earned Income
Exclusion
Of the approximately 140 million Tax Year 2009 individual income tax returns filed during
Processing Years 2010 and 2011, 372,119 (0.27 percent) tax returns included a
Form 2555/2555-EZ. These tax returns claimed approximately $23.3 billion in the FEIE and an
average FEIE of about $63,34210 per tax return.11 Of the 372,119 tax returns:
        $50.5 billion in wages were reported, of which $36.6 billion in wages were reported as
         earned while living and working in a foreign country.
        $5 billion in Foreign Tax Credits were claimed. Taxpayers living and working in a
         foreign country may also be eligible to claim the Foreign Tax Credit for foreign taxes
         paid on foreign income not covered by the FEIE. This includes foreign earned income
         (wages) as well as foreign passive income (interest and dividends).
        $4.3 billion in Federal income taxes were reported on 175,972 tax returns. As a result of
         the FEIE and other credits and deductions, 196,147 tax returns reported no Federal
         income taxes.
        $2.7 billion in Foreign Housing Exclusions were claimed, and $102.6 million in Foreign
         Housing Deductions were taken.
Figure 3 provides a breakdown by Adjusted Gross Income for the 372,119 Tax Year 2009
individual income tax returns with Forms 2555/2555-EZ.




10
  The maximum FEIE exclusion for Tax Year 2009 was $91,400.
11
  Only 367,712 of the 372,119 Tax Year 2009 individual income tax returns with an attached Form 2555/2555-EZ
claimed the FEIE. The averaged FEIE amount was calculated using the actual total FEIE amount claimed, not the
rounded amount used in this report.
                                                                                                       Page 5
                      The Referral Process for Examinations of Tax Returns Claiming
                       the Foreign Earned Income Exclusion Needs to Be Improved



            Figure 3: Breakdown of Adjusted Gross Income for Tax Year 2009
                Individual Income Tax Returns With Forms 2555/2555-EZ 12

     Adjusted Gross Income

     $0 to $100,000               298,358 (80 percent) reported less than $100,000 in Adjusted Gross
                                  Income, averaging $58,742 in the FEIE per tax return.
                                  As a result of the FEIE and other credits and deductions,
                                  188,241 (63 percent) tax returns reported no U.S. Federal income taxes.
     $100,001 to $500,000         61,552 (17 percent) reported Adjusted Gross Income from $100,001 to
                                  $500,000, averaging about $80,693 in the FEIE per tax return.
                                  As a result of the FEIE and other credits and deductions,
                                  6,933 (11 percent) tax returns reported no U.S. Federal income taxes.
     Greater Than $500,000        12,209 (3 percent) reported Adjusted Gross Income greater than $500,000,
                                  averaging about $88,213 in the FEIE per tax return.
                                  As a result of the FEIE and other credits and deductions, 973 (8 percent) tax
                                  returns reported no U.S. Federal income taxes.
 Source: Our analysis of the Individual Return Transaction File for Processing Years 2010 and 2011 for
 Tax Year 2009 individual income tax returns with Forms 2555/2555-EZ attached.

In addition to the analysis in Figure 3, we selected a statistical sample of 150 tax returns13 from a
population of 331,405 Tax Year 2009 individual income tax returns with a Form 2555/2555-EZ
to identify taxpayers who claimed the FEIE and those who also claimed the Foreign Housing
Exclusion/Deduction.
Based on our sample, U.S. taxpayers living and working in foreign countries who claimed the
FEIE reduced their Federal income taxes for Tax Year 2009 by $254,393 or by $562 million
when projected to the sampled population.14 This results in an average reduction of Federal
income taxes of about $1,696 per tax return.
Foreign Housing Exclusion/Deduction
On 26 (17 percent) of the 150 tax returns sampled, taxpayers also claimed the Foreign Housing
Exclusion/Deduction. The amount of their credits/deductions totaled $520,342, which reduced
their Federal income taxes by $78,822. Applying the results of our sample to the population, we

12
   See Appendix VI for specifics on the 372,119 tax returns.
13
   We selected a total sample of 150 Tax Year 2009 tax returns with either a Form 2555 or a Form 2555-EZ
attached. However, one taxpayer attached a Form 2555 to the tax return but did not claim the FEIE. This
population of individual income tax returns with an attached Form 2555/2555-EZ from which we selected our
sample included only Tax Year 2009 returns processed during Processing Year 2010 from taxpayers whose tax year
ended on December 31.
14
   We are 95 percent confident that the range is between $210 and $914 million.
                                                                                                         Page 6
                   The Referral Process for Examinations of Tax Returns Claiming
                    the Foreign Earned Income Exclusion Needs to Be Improved



estimate that taxpayers claiming the Foreign Housing Exclusion/Deduction reduced their Federal
income taxes by an additional $174 million for Tax Year 2009.15 This results in an average of
about $525 per tax return.
Foreign Tax Credit
On 36 (24 percent) of the 150 tax returns sampled, taxpayers also claimed Foreign Tax Credits.
The Foreign Tax Credit is claimed when taxpayers paid or accrued foreign taxes to a foreign
country on foreign-sourced income. For the 36 tax returns, foreign taxes were paid on earned
income, i.e., wages, totaling $1,592,841 and passive income, i.e., investments, totaling $10,157.
The total Foreign Tax Credits claimed was $1,602,998, or an average of $44,528.

Examinations of Tax Returns Claiming the Foreign Earned Income
Exclusion Are Not Appropriately Referred to International Examiners
During Fiscal Years 2009 through 2011, domestic examiners16 did not appropriately refer
2,851 (99 percent) of 2,876 individual tax returns with a Form 2555/2555-EZ17 that had been
selected for examination to international examiners.18 Additionally, 1,583 individual tax returns
with a Form 2555/2555-EZ that are not required to be referred due to current IRS policy might
warrant referral to international examiners.
While the IRS examines some tax returns for issues specific to the Forms 2555/2555-EZ, tax
returns (with Forms 2555/2555-EZ attached) are selected and examined for other tax issues not
relating to the FEIE. When this happens, domestic examiners are generally required to refer any
tax return under examination with an attached Form 2555/2555-EZ19 to an international examiner
through the Specialist Referral System. Internal guidelines specifically state:20
         (1) Generally, all returns with international features meet the mandatory referral criteria
             and must be referred to an international examiner.


15
   We are 95 percent confident that the range is between $64 and $265 million.
16
   Examiners who are assigned examinations associated with domestic (U.S.) issues.
17
   Of the 2,851 individual tax returns, 44 were examined by the Large Business and International Division and 2,807
were examined by the Small Business/Self-Employed Division.
18
   We analyzed IRS data and found that during Fiscal Years 2009 through 2011, the IRS closed 7,355 tax return
examinations where a Form 2555/2555-EZ was present. Of the 7,355 tax return examinations, 4,479 were removed
from the sample because they did not meet the referral criteria. Of the 4,479: 2,757 were examined as part of a
specific international compliance initiative, 139 were investor tax returns held in suspense status until the primary
partnership tax returns were closed and the flow-through adjustments were made, and 1,583 were examined by the
Wage and Investment Division and due to current IRS policy were not required to be referred. The remaining
2,876 tax returns met the criteria to be referred to an international specialist.
19
   Form 2555 is used to compute the FEIE and the Foreign Housing Exclusion/Deduction, and Form 2555-EZ is
used only to compute the FEIE.
20
   Internal Revenue Manual 4.60.6.2 (Mar. 1, 2007).
                                                                                                             Page 7
                The Referral Process for Examinations of Tax Returns Claiming
                 the Foreign Earned Income Exclusion Needs to Be Improved



       (2) A preliminary review of returns with international features will be made to determine
           if the case should be referred.
       (3) International features include but are not limited to the following:
               a. Schedules and attachments of any of the following forms to the tax return:

           Form                 Form Title                   Referral Criteria
           2555, 2555-EZ        Foreign Earned Income;       All
                                Foreign Earned Income
                                Exclusion

When asked why employees did not follow the procedures and refer individual tax returns
involving the FEIE to international examiners, IRS officials responded as follows:
      Large Business and International Division: Officials stated that some of these tax
       returns were training returns and that the referral requirement was overlooked. For the
       other tax returns, specific information related to them could not be secured due to the
       recent domestic reorganization, which placed many of the cases in a different industry
       from which they were originally aligned. As a result, officials were unable to comment
       on why these cases were not referred as required.
      Small Business/Self-Employed Division: Officials stated that their Campus Reporting
       Compliance function employees are subject to the international referral criteria.
       However, they have determined that the Campus Reporting Compliance Internal Revenue
       Manual contains no cross-reference to the international referral criteria to instruct tax
       examiners to refer tax returns meeting the international referral criteria.
      Wage and Investment Division: Officials stated that their Campus Reporting
       Compliance function employees are not subject to the referral process when the tax return
       has a Form 2555/2555-EZ attached because current internal guidelines do not include the
       Wage and Investment Division.
The referral policy ensures that tax returns open for examination with international issues are
reviewed by an international examiner with the requisite knowledge to determine whether a
significant international issue exists that needs to be examined. Once a referral request is
submitted, an international manager reviews the request and either declines it or accepts it and
assigns the referral to an international examiner to work.
If the referral is accepted, the international examiner can either work the international issue or
provide a consultation and have the domestic examiner add the international issue to his or her
examination. If the referral is declined, the tax return is returned to the domestic examiner to
continue with the examination without the international issue. Fourteen (56 percent) of the
25 individual tax returns with a Form 2555/2555-EZ referred to international examiners in Fiscal

                                                                                            Page 8
                   The Referral Process for Examinations of Tax Returns Claiming
                    the Foreign Earned Income Exclusion Needs to Be Improved



Years 2009 through 2011 were accepted. Of the 14 accepted tax returns, international examiners
directly examined six returns and provided consultations on the remaining eight returns.

Examination of tax returns filed with Forms 2555/2555-EZ show a high rate of
noncompliance
IRS examination results show that 77 percent of tax returns that were examined as part of the
Forms 2555/2555-EZ compliance initiatives conducted during Fiscal Years 2009 through 2011
had adjustments resulting in approximately $21 million in additional tax. When the domestic
examiner closes a tax return examination case without making the required referral to the
international examiner, potential international noncompliance may not be identified.
From Fiscal Years 2009 through 2011, the IRS examined 3,244 tax returns from approximately
1.1 million tax returns filed with an attached Form 2555/2555-EZ during Tax Years 2008
through 2010. These tax returns were selected as part of an IRS Compliance Initiative Program
that focused specifically on Forms 2555/2555-EZ. Figure 4 provides a synopsis of the FEIE
examination results for the compliance initiatives for Fiscal Years 2009 through 2011.
        Figure 4: FEIE Examination Results (Fiscal Years 2009 Through 2011)

     Fiscal Year                                    2009        2010        2011       Totals     Average
     Tax Returns Examined for FEIE Issues           1,555        841         848       3,244
     Recommended Examination
     Assessments Resulting From FEIE               $10.95       $5.32       $4.87     $21.14
     Issues (in Millions)
     Examiner Time (Hours)                         12,428       9,183       7,071     28,682
     Dollars Per Hour                               $881        $579        $689                   $737
                          21
     Dollars Per Return                            $7,041      $6,325      $5,743                 $6,516
     Hours Per Return                                 8          11           8                      9
     No-Change Rate                                 31%         15%         18%                    23%
     Source: Our analysis of the Individual Return Transaction File for Processing Years 2008 through 2010
     and the Audit Information Management System for tax return examinations closed in Fiscal Years 2009
     through 2011.

We estimate that the risk of examiners not referring tax returns to international examiners for
410 tax returns on the Specialist Referral System is approximately $2.7 million in annual tax
assessments, or about $13.5 million over five years. Additionally, examinations by the Wage
and Investment Division that were not required to be referred due to current IRS policy might


21
  The Dollars Per Return amounts were calculated using the actual Recommended Examination Assessments
Resulting From FEIE Issues amounts, not the corresponding rounded amounts in the table.
                                                                                                          Page 9
                      The Referral Process for Examinations of Tax Returns Claiming
                       the Foreign Earned Income Exclusion Needs to Be Improved



warrant referral to international examiners. If these 228 tax returns are referred, this could
potentially result in approximately $1.5 million in additional annual tax assessments, or about
$7.5 million over five years.22

Recommendations
We recommended that the Commissioner, Large Business and International Division:
Recommendation 1: Coordinate with the Commissioner, Small Business/Self-Employed
Division, to ensure that domestic examiners and their managers are aware of the international
referral criteria of Internal Revenue Manual 4.60.6.2 and that a cross-reference to these criteria is
incorporated into the Campus Reporting Compliance section of the Internal Revenue Manual.
           Management’s Response: The IRS agreed with this recommendation. The Small
           Business/Self-Employed Division Field Examination Policy function is in the process of
           making improvements to the examination lead sheets. Lead Sheet 110, Audit Plan, has
           been revised to include a hyperlink to the mandatory referral criteria to assist examiners
           in making the determination. Representatives from the Large Business and International
           Division and the Small Business/Self-Employed Division’s Campus Reporting
           Compliance function will meet to evaluate the international referral criteria process and
           determine if it should be expanded to the Campus Reporting Compliance function.
           However, the IRS disagreed with the outcome measures presented in this report and
           stated that without reviewing the actual physical case files reviewed by the Treasury
           Inspector General for Tax Administration, the IRS cannot conclude that all of the cases
           should have been referred to the international examiners. IRS management stated that
           while Internal Revenue Manual 4.60.6.2, Mandatory Referral Criteria, exists so that
           income tax returns open for examination with international issues can be inspected by an
           international specialist to ascertain if significant issues exist, the language refers to
           “generally” and a “preliminary review of returns with international features will be made
           to determine if the case should be referred.” This language provides the examiner and
           manager the flexibility to make an appropriate business decision on when a referral is
           warranted. In addition, the IRS stated that our outcome measure calculation may not be
           accurate because it assumes that all tax returns referred to an international specialist
           would have similar results as tax returns audited under the IRS’s Compliance Initiative
           Program.
           Office of Audit Comment: While Internal Revenue Manual 4.60.6.2 does provide for
           a preliminary review of returns with international features, it also states that all returns
           with international features must be referred to an international examiner (the chart in
           section 4.60.6.2(3) specifically states that international features include all tax returns

22
     See Appendix IV for a detailed explanation of these calculations.
                                                                                               Page 10
                The Referral Process for Examinations of Tax Returns Claiming
                 the Foreign Earned Income Exclusion Needs to Be Improved



       with a Form 2555/2555-EZ). Therefore, if a tax return is open for examination and
       includes the Form 2555/2555-EZ, it needs to be referred to an international specialist to
       determine whether a significant international issue exists. If the IRS has now decided to
       no longer require mandatory referrals of all returns with a Form 2555/2555-EZ, it will
       need to update this Internal Revenue Manual section to clearly explain that.
       In addition, we obtained a computer extract to identify the tax returns with a
       Form 2555/2555-EZ that needed to be referred to an international examiner but did not
       review actual tax return cases. We then used the actual results of Form 2555/2555-EZ
       audits from the Compliance Initiative Program to calculate our outcome measures. While
       it is true that referrals of tax returns with the Form 2555/2555-EZ may have different
       audit results if worked through the specialist referral process rather than the Compliance
       Initiative Program, neither we nor the IRS knows what that difference would be. The
       Compliance Initiative Program results provide a good indication of likely audit results for
       the Form 2555/2555-EZ. As such, we believe the outcome measure projections
       accurately reflect the potential impact of our recommendations.
Recommendation 2: Coordinate with the Commissioner, Wage and Investment Division, to
evaluate the international referral criteria process and determine if it should be expanded to the
Wage and Investment Division.
       Management’s Response: The IRS agreed with this recommendation.
       Representatives from the Large Business and International Division and the Wage and
       Investment Division’s Reporting Compliance function will meet to evaluate the
       international referral criteria process and determine if it should be expanded to the Wage
       and Investment Division.




                                                                                           Page 11
                  The Referral Process for Examinations of Tax Returns Claiming
                   the Foreign Earned Income Exclusion Needs to Be Improved



                                                                                             Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of the review was to provide an overview of tax returns claiming the FEIE1
and the Foreign Housing Exclusion/Deduction. To accomplish our objective, we:
I.      Determined how the IRS provides compliance oversight of the FEIE and the Foreign
        Housing Exclusion/Deduction and their effect on tax administration.
        A. Evaluated the Compliance Initiative Program Charters and selection criteria.
        B. Evaluated the referral process of Forms 1040, U.S. Individual Income Tax Return,
           with a Form 2555/2555-EZ, Foreign Earned Income/Foreign Earned Income
           Exclusion, attached to international examiners through the Specialist Referral System.
        C. Evaluated the workload results for tax compliance officer and tax examiner units
           working FEIE issues by comparing FEIE examination results with non-FEIE
           examination results.
II.     Determined the viability of the FEIE and the Foreign Housing Exclusion/Deduction in
        today’s globalized economy.
        A. Selected a statistically valid random variable sample of 150 tax returns from a
           population of 331,405 Tax Year 2009 individual income tax returns with an attached
           Form 2555/2555-EZ using an estimated standard deviation of $5,338.2 A random
           variable sample was selected to permit us to project an estimate of the amount of tax
           revenue. The sample results indicated an average dollar error rate of about $1,696 or
           approximately $562 million for the FEIE and about $525 or approximately
           $174 million for the Foreign Housing Exclusion/Deduction for a combined average
           dollar error rate of about $2,221 or approximately $736 million. We are 95 percent
           confident that the range is between $210 and $914 million for the FEIE and between
           $64 and $265 million for the Foreign Housing Exclusion/Deduction. The Treasury
           Inspector General for Tax Administration’s contract statistician assisted with and
           reviewed our sampling plan and projections.
        B. Determined the filing characteristics of individual income tax returns with a
           Form 2555/2555-EZ attached by analyzing the Individual Return Transaction File.


1
 See Appendix VII for a glossary of terms.
2
 This population of individual income tax returns with an attached Form 2555/2555-EZ included only Tax
Year 2009 returns processed during Processing Year 2010 from taxpayers whose tax year ended on December 31.
                                                                                                    Page 12
                The Referral Process for Examinations of Tax Returns Claiming
                 the Foreign Earned Income Exclusion Needs to Be Improved



       C. Determined the potential tax burden in Tax Year 2012 of a single U.S. taxpayer
          making $104,850 in earned income living and working in the United States
          (U.S. comparison), the Cayman Islands (no income tax country), and the United
          Kingdom (high income tax country).
Data validation methodology
Computer-processed data from the Individual Return Transaction File for Processing Years 2009
through 2011 maintained on the Treasury Inspector General for Tax Administration’s Data
Center Warehouse were compared and reconciled to data published in the Calendar Year 2010
and 2011 IRS Databooks and determined to be sufficiently reliable. Computer-processed data
from the Audit Information Management System for Fiscal Years 2008 through 2011 maintained
on the Data Center Warehouse were compared and reconciled to the IRS’s Table 37 Examination
Program Monitoring and determined to be sufficiently reliable.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies, procedures, and practices for
filing, referring, and examining tax returns with the FEIE. We evaluated these controls by
reviewing source materials, interviewing management, analyzing and matching IRS data
systems, reviewing examination case files, and reviewing taxpayer accounts.




                                                                                           Page 13
               The Referral Process for Examinations of Tax Returns Claiming
                the Foreign Earned Income Exclusion Needs to Be Improved



                                                                            Appendix II

                Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Bryce Kisler, Director
Christina Dreyer, Audit Manager
Earl Charles Burney, Lead Auditor
Todd Anderson, Senior Auditor
Gwendolyn Green, Senior Auditor
Kevin Nielsen, Auditor




                                                                                    Page 14
               The Referral Process for Examinations of Tax Returns Claiming
                the Foreign Earned Income Exclusion Needs to Be Improved



                                                                            Appendix III

                         Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Office of the Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Services and Operations, Wage and Investment Division SE:W
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner (International) United States Competent Authority, Large Business and
   International Division SE:LB:IN
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, International Individual Compliance, Large Business and International Division
   SE:LB:IN
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Large Business and International Division SE:LB




                                                                                    Page 15
                   The Referral Process for Examinations of Tax Returns Claiming
                    the Foreign Earned Income Exclusion Needs to Be Improved



                                                                                                 Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Increased Revenue – Potential; $2.7 million in additional tax assessments for 410 tax returns
    as a result of improving referrals to international examiners for tax return examinations
    where Form 2555/2555-EZ, Foreign Earned Income/Foreign Earned Income Exclusion, is
    present, or $13.5 million for 2,050 tax returns over five years (see page 8).

Methodology Used to Measure the Reported Benefit:
We found that 2,851 individual tax returns1 with a Form 2555/2555-EZ from Fiscal Years2 2009
through 2011 were not properly referred to international examiners on the Specialist Referral
System. To calculate the potential additional revenue that could have resulted from these missed
referrals, we used the following calculation.
We divided the number of tax return referrals not made between Fiscal Years 2009 through 2011
by three to determine the average annualized referrals not made. As a result, on average, 950 tax
returns (2,851 divided by three) requiring a referral were not made each year.
We then calculated the international examiner rejection rate. Of the 25 tax returns referred to
international examiners from Fiscal Years 2009 through 2011, 14 tax returns3 were accepted.
Therefore, international examiners have a 56 percent average acceptance rate (14 divided 25), or
a 44 percent4 rejection rate. As a result, approximately 418 (950 times 44 percent) of the tax
return referrals, if they were made, may be rejected, or 532 (950 less 418) of the referrals may be
accepted.
Because not all tax returns examined result in a tax assessment, we calculated the international
examiner no-change rate. Of the 3,244 tax returns filed with an attached Form 2555/2555-EZ

1
  Of the 2,851 individual tax returns, 44 were examined by the Large Business and International Division and 2,807
were examined by the Small Business/Self-Employed Division.
2
  See Appendix VII for a glossary of terms.
3
  Of the 14 accepted tax returns, international examiners directly examined six returns and provided consultations on
the remaining eight returns.
4
  For the 44 percent rejection rate, 11 out of the 25 referred tax returns were rejected. ********1**************
**************************1*****************************************.
                                                                                                           Page 16
                     The Referral Process for Examinations of Tax Returns Claiming
                      the Foreign Earned Income Exclusion Needs to Be Improved



examined by international examiners from Fiscal Years 2009 through 2011 as part of an IRS
Compliance Initiative Program, 760 tax returns were closed as a no-change, or an average
no-change rate of 23 percent (760 divided by 3,244). As a result, 122 cases (532 referrals
accepted times 23 percent), if referred, may result in no change to the tax liability, or
410 referrals may result in additional assessments.
We then calculated the average dollars per return. The 3,244 examined tax returns with an
attached Form 2555/2555-EZ had total assessments of $21,137,491, or an average assessment of
$6,516 ($21,137,491 divided by 3,244).5 As a result, approximately $2.7 million (410 times
$6,516) in potential assessments were not made because domestic examiners did not refer these
tax returns with an attached Form 2555/2555-EZ as required. We project that improving the
Form 2555/2555-EZ referral process would increase revenue by approximately $2.7 million a
year, or about $13.5 million over five years. However, the value of the outcome measure does
not include amounts (revenue) that would partially offset this benefit as a result of directing
examination resources away from other types of returns in order to pursue these referred ones.
                   Figure 1: Projections for Tax Return Referrals Not Made to
                                    International Examiners

     Description                                                                                        Amount
     Tax Return Referrals Not Made in Fiscal Years 2009 Through 2011                                       2,851
     Divided by: Number of Years in Analysis                                                                   3
        Annualized Tax Return Referrals Not Made                                                             950
     Less: Tax Return Referrals That Could Be Expected to Be Rejected by International
           (44 percent Referral Rejection Rate × 950 Annualized Referrals Not Made)                         (418)
        Tax Return Referrals That Could Be Expected to Be Accepted by International                           532
     Less: Expected No-Change Tax Return Examinations
           (23 percent Average No-Change Rate × 532 Accepted Referrals)                                     (122)
        Expected Tax Return Referrals With Assessments                                                        410
     Multiplied by: Average Dollars per Tax Return                                                       $6,516
       Expected Annual Increased Revenue (Rounded)                                                   $2,700,000
    Source: Calculations based on Compliance Initiative Program audit results and to determine the dollar impact
    due to tax return referrals not being made to international examiners.




5
 This calculation assumes that the tax returns referred will have similar results as the IRS’s Compliance Initiative
Program that focuses on Forms 2555/2555-EZ. However, the tax returns referred may not have similar results.
                                                                                                             Page 17
                   The Referral Process for Examinations of Tax Returns Claiming
                    the Foreign Earned Income Exclusion Needs to Be Improved



Type and Value of Outcome Measure:
   Increased Revenue – Potential; $1.5 million in additional tax assessments for 228 tax returns
    as a result of expanding the referral requirement to the Wage and Investment Division for tax
    return examinations where a Form 2555/2555-EZ is present, or about $7.5 million for
    1,140 tax returns over five years (see page 8).

Methodology Used to Measure the Reported Benefit:
We identified 1,583 individual tax returns with a Form 2555/2555-EZ from Fiscal Years 2009
through 2011 that were not subject to the referral process because current IRS guidelines do not
include the Wage and Investment Division. This referral process should be reconsidered to
include the Wage and Investment Division. To calculate the potential additional revenue that
could have resulted from these tax return referrals, we used the following calculation.
We divided the number of tax return referrals not made by the Wage and Investment Division
between Fiscal Years 2009 through 2011 by three to determine the average annualized referrals
not made. As a result, on average, 528 (1,583 divided by three) tax return referrals were not
made each year.
We then calculated the international examiner rejection rate. Of the 25 tax returns referred to
international examiners from Fiscal Years 2009 through 2011, 14 tax returns6 were accepted.
Therefore, international examiners have a 56 percent average acceptance rate (14 divided 25), or
a 44 percent7 rejection rate. As a result, approximately 232 (528 times 44 percent) of the tax
return referrals, if they were made, may have been rejected, or 296 (528 less 232) referrals may
have been accepted.
Because not all tax returns examined result in a tax assessment, we calculated the international
examiner no-change rate. Of the 3,244 tax returns filed with an attached Form 2555/2555-EZ
examined by international examiners from Fiscal Years 2009 through 2011 as part of an IRS
Compliance Initiative Program, 760 returns were closed as a no-change, or an average no-change
rate of 23 percent (760 divided by 3,244). As a result, 68 cases (296 referrals accepted times
23 percent), if referred, may result in no change to the tax liability, or 228 referrals may result in
additional assessments.
We then calculated the average dollars per return. The 3,244 examined tax returns with an
attached Form 2555/2555-EZ had total assessments of $21,137,491, or an average assessment of




6
  Of the 14 accepted tax returns, international examiners directly examined six returns and provided consultations on
the remaining eight returns.
7
  For the 44 percent rejection rate, 11 out of the 25 referred tax returns were rejected. *******1**********
******************************************1****************************************.
                                                                                                           Page 18
                     The Referral Process for Examinations of Tax Returns Claiming
                      the Foreign Earned Income Exclusion Needs to Be Improved



about $6,516 ($21,137,491 divided by 3,244).8 As a result, approximately $1.5 million
(228 times $6,516) in assessments were not made because the Wage and Investment Division
policy did not require these tax returns to be referred to international examiners. If these tax
returns were referred, we project that the Form 2555/2555-EZ referral process would increase
revenue by approximately $1.5 million a year, or $7.5 million over five years. However, the
value of the outcome measure does not include amounts (revenue) that would partially offset this
benefit as a result of directing examination resources away from other types of tax returns in
order to pursue these referred ones.
           Figure 2: Projections for International Examiner Referral Requirement
                     If Expanded to the Wage and Investment Division

     Description                                                                                       Amount
     Tax Return Referrals Not Made in Fiscal Years 2009 Through 2011                                       1,583
     Divided by: Number of Years in Analysis                                                                   3
        Annualized Tax Return Referrals Not Made                                                             528
     Less: Tax Return Referrals That Could Be Expected to Be Rejected by
           International
           (44 percent Referral Rejection Rate × 528 Annualized Referrals Not Made)                        (232)
        Tax Return Referrals That Could Be Expected to Be Accepted by International                          296
     Less: Expected No-Change Tax Return Examinations
           (23 percent Average No-Change Rate × 296 Accepted Referrals)                                      (68)
        Expected Tax Return Referrals With Assessments                                                       228
     Multiplied by: Average Dollars per Tax Return                                                      $6,516
       Expected Annual Increased Revenue (Rounded)                                                  $1,500,000

    Source: Calculations based on Compliance Initiative Program audit results and to determine the dollar impact
    due to tax return referrals not being made to international examiners.




8
 This calculation assumes that the tax returns referred will have similar results as the IRS’s Compliance Initiative
Program that focuses on Forms 2555/2555-EZ. However, the tax returns referred may not have similar results.
                                                                                                             Page 19
The Referral Process for Examinations of Tax Returns Claiming
 the Foreign Earned Income Exclusion Needs to Be Improved



                                                  Appendix V

Form 2555, Foreign Earned Income




                                                        Page 20
The Referral Process for Examinations of Tax Returns Claiming
 the Foreign Earned Income Exclusion Needs to Be Improved




                                                        Page 21
          The Referral Process for Examinations of Tax Returns Claiming
           the Foreign Earned Income Exclusion Needs to Be Improved




Source: IRS.gov, Form 2555 for Tax Year 2012.



                                                                  Page 22
                       The Referral Process for Examinations of Tax Returns Claiming
                        the Foreign Earned Income Exclusion Needs to Be Improved



                                                                                                   Appendix VI

                       Characteristics of Tax Year 2009
                     Individual Income Tax Returns Filed
                          With a Form 2555/2555-EZ

                                                        Adjusted Gross Income Levels                      Population
                                                   $0 to         $100,001 to                               Totals and
                                                $100,000           $500,000               >$500,000         Averages
                                    1
Number of Tax Returns Population                 298,358              61,552                12,209             372,119
Total Income                                  $3.7 billion       $13.2 billion         $17.1 billion       $34.0 billion
                       2
Average Total Income                             $12,548           $214,388             $1,401,708             $91,511
Total Taxable Income                          $3.0 billion       $11.1 billion         $16.0 billion       $30.0 billion
Number of Tax Returns                            107,117              61,472                12,206             180,795
Average Taxable Income                           $27,886           $180,579             $1,312,726           $166,546
Total Tax                                     $0.6 billion        $1.6 billion          $2.1 billion        $4.3 billion
Number of Tax Returns                            110,117              54,619                11,236             175,972
Average Total Tax                                 $5,524             $28,950              $188,164             $24,457
Total FEIE                                   $17.3 billion        $4.9 billion          $1.1 billion       $23.3 billion
Number of Tax Returns                            294,775              60,927                12,010             367,712
Average FEIE                                     $58,742             $80,693               $88,213             $63,342
Total Foreign Tax Credit                      $0.2 billion        $1.7 billion          $3.1 billion        $5.0 billion
Number of Tax Returns                             37,803              43,384                11,605              92,792
Average Foreign Tax Credit                        $5,419             $38,803              $265,707             $53,580
Total Foreign Housing Exclusion               $0.4 billion        $1.9 billion          $0.3 billion        $2.7 billion
Number of Tax Returns                             27,364              27,601                  7,683             62,648
Average Foreign Housing Exclusion                $15,776             $69,735               $41,376             $42,689
Total Foreign Housing Deduction              $40.1 million      $23.4 million          $39.1 million     $102.6 million
Number of Tax Returns                               2,675              1,127                    846              4,648
Average Foreign Housing Deduction                $14,994             $20,771               $46,200             $22,075

Source: Our analysis of the Individual Return Transaction File for Processing Years 2010 and 2011 for
Tax Year 2009 individual income tax returns with Forms 2555/2555-EZ attached.

1
  The 372,119 Tax Year 2009 individual income tax returns with an attached Form 2555/2555-EZ were filed during
Processing Years 2010 and 2011. Those tax returns include taxpayers that claimed the FEIE and/or the Foreign
Housing Exclusion/Deduction. Some taxpayers claimed the FEIE but not the Foreign Housing
Exclusion/Deduction. Others claimed only the Foreign Housing Exclusion/Deduction. Still others claimed both.
2
  All averages in this table were calculated using the actual dollar amounts, not the rounded amounts reported in the
table.
                                                                                                            Page 23
                  The Referral Process for Examinations of Tax Returns Claiming
                   the Foreign Earned Income Exclusion Needs to Be Improved



                                                                                     Appendix VII

                                Glossary of Terms

Term                                 Definition

Adjusted Gross Income                As defined by Section 62 of the Internal Revenue Code, in the
                                     case of an individual, means gross income minus deductions
                                     allowed by this chapter.
Audit Information Management         A computer system used by the IRS Examination functions to
System                               control returns, input assessments/adjustments to the Master
                                     File, and provide management reports. The Master File is the
                                     IRS database that stores various types of taxpayer account
                                     information. This database includes individual, business, and
                                     employee plans and exempt organizations data.
Calendar Year                        A 12-consecutive-month period ending on December 31.
Double Taxation                      The levying of tax by two or more jurisdictions on the same
                                     declared income. This is often mitigated by tax treaties
                                     between countries.
Examination No-Change                An examination that does not necessitate the issuance of an
                                     audit report other than a no-change report, such as a tax return
                                     where there were no adjustments or changes in tax liability for
                                     the return, including tax, penalties, or refundable credits.
Fiscal Year                          A 12-consecutive-month period ending on the last day of any
                                     month. The Federal Government’s fiscal year begins on
                                     October 1 and ends on September 30.
Foreign Earned Income Exclusion      Allows taxpayers to exclude some or all of their income, up to
                                     $95,100 for Tax Year 2012 ($190,200 for married taxpayers
                                     filing jointly), earned in a foreign country during a period in
                                     which their “tax home” is in a foreign country and they meet
                                     other qualifications (either the bona fide residence test or the
                                     physical presence test). This exclusion is provided under
                                     Section 911 of the Internal Revenue Code.
Foreign Tax Credit                   An individual may qualify to claim a foreign tax credit if the tax
                                     is imposed on a paid or accrued income tax to a foreign country
                                     or U.S. possession.
Individual Return Transaction File   Data transcribed from initial input of the original individual
                                     income tax returns during return processing.




                                                                                                Page 24
                 The Referral Process for Examinations of Tax Returns Claiming
                  the Foreign Earned Income Exclusion Needs to Be Improved




Term                              Definition

Internal Revenue Manual           Contains the policies, procedures, instructions, guidelines, and
                                  delegations of authority which direct the operation for all
                                  divisions and functions of the IRS. Topics include tax
                                  administration, personnel and office management, and others.
Processing Year                   The year in which tax returns and other tax data are processed.
Resident Alien                    An individual who is not a U.S. citizen who meets either the
                                  “green card” test of holding an immigrant visa or the physical
                                  presence of being in the United States for at least 31 days
                                  during the current calendar year and a total of 183 days during
                                  the three-year period that includes the current year and the
                                  two preceding years.
Specialist Referral System        The Specialist Referral System automates the referral request
                                  process and must be used for referrals, questions, and
                                  requests for assistance from specialist groups.
Tax Year                          The 12-month period for which tax is calculated. For most
                                  individual taxpayers, the tax year is synonymous with the
                                  calendar year.
Taxable Income                    As defined by Section 63 of the Internal Revenue Code means
                                  gross income minus deductions allowed by this chapter.
Total Income                      Total Income is synonymous with the term gross income which
                                  as defined by Section 61 of the Internal Revenue Code means
                                  all income from whatever source derived including, but not
                                  limited to, compensation for services, gross income derived
                                  from business, gains derived from dealings in property, and
                                  interest. It also factors in business losses, capital losses, farm
                                  losses, etc.




                                                                                            Page 25
    The Referral Process for Examinations of Tax Returns Claiming
     the Foreign Earned Income Exclusion Needs to Be Improved



                                                    Appendix VIII

Management’s Response to the Draft Report




                                                            Page 26
The Referral Process for Examinations of Tax Returns Claiming
 the Foreign Earned Income Exclusion Needs to Be Improved




                                                        Page 27
The Referral Process for Examinations of Tax Returns Claiming
 the Foreign Earned Income Exclusion Needs to Be Improved




                                                        Page 28
The Referral Process for Examinations of Tax Returns Claiming
 the Foreign Earned Income Exclusion Needs to Be Improved




                                                        Page 29
